<html>
<title> - VOLCANIC HAZARDS</title>
<body><pre>[Senate Hearing 109-521]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-521
 
                 VOLCANIC HAZARDS--IMPACTS ON AVIATION

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
29-351                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

JIM DeMINT, South Carolina,          E. BENJAMIN NELSON, Nebraska, 
    Chairman                             Ranking
TED STEVENS, Alaska                  MARIA CANTWELL, Washington
GORDON H. SMITH, Oregon              BILL NELSON, Florida
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 16, 2006...................................     1
Statement of Senator DeMint......................................    20
Statement of Senator E. Benjamin Nelson..........................     2
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................     1

                               Witnesses

Eichelberger, Dr. John C., Professor of Volcanology, University 
  of Alaska Fairbanks; Coordinating Scientist, Alaska Volcano 
  Observatory....................................................     7
    Prepared statement...........................................     9
McVenes, Captain Terry, Executive Air Safety Chairman, Airline 
  Pilots Association, International..............................     3
    Prepared statement...........................................     5
Quick, Dr. James E., Program Coordinator, Volcano Hazards 
  Program, U.S. Geological Survey, Department of the Interior....    11
    Prepared statement...........................................    13

                                Appendix

Inouye, Daniel K., U.S. Senator from Hawaii, prepared statement..    23
National Oceanic and Atmospheric Administration (NOAA), prepared 
  statement......................................................    23


                 VOLCANIC HAZARDS--IMPACTS ON AVIATION

                              ----------                              


                        THURSDAY, MARCH 16, 2006

                               U.S. Senate,
Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you all for coming here today. It's a 
very confused day, probably about 40 votes on the floor today. 
We all know the threat that volcanic ash poses for Alaska. The 
staff just gave me a little bit of ash, Dr. Eichelberger, from 
Augustine. I've got an opening statement which I'll put in the 
record. But very clearly over half the population of Alaska 
lies within 200 miles of Augustine. And 2 months ago it spewed 
ash throughout south central Alaska shutting down several 
airports throughout the area.
    We're going to have testimony today, from Captain Terry 
McVenes, Air Safety Chairman for the Airline Pilots 
Association, Mr. James Quick, Program Coordinator for the 
Volcano Hazardous Program at USGS and Dr. John Eichelberger, 
Coordinating Scientist at Alaska Volcano Observatory at the 
University of Fairbanks, and Dr. Eichelberger, I do thank you 
for flying all this way to appear before us to make the record 
on this issue, and I'm sure you want to go back in case 
Augustine decides to erupt again, right.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Thank you all for coming today, I am happy to be chairing this 
hearing, since volcanic ash poses such a grave threat to Alaska. I 
expect Senator DeMint to join us a bit later.
    As we speak, Augustine Volcano located in Cook Inlet, is at code 
orange, which means an explosive eruption is possible within a few days 
and may occur with little or no warning. The United States Geological 
Survey folks in Alaska sent me this picture last night. This was right 
before sunset yesterday over Augustine, you can see the steam spewing 
from the top.
    Over half the population of Alaska lies within 200 miles of that 
volcano. Two months ago, it spewed ash throughout south-central Alaska, 
shutting down several airports throughout the area.
    Alaska averages four days of volcanic ash activity a year, and 
since more than one third of Alaskans do not have road access, flying 
is the preferred method of transportation. Anchorage, our biggest city, 
is within potential striking distance of ash from over 9 active 
volcanoes. Anchorage International Airport is also the largest cargo 
hub in the United States, and all passenger flights from Asia to the 
United States, fly over Alaska and its 41 active volcanoes.

    Dr. Eichelberger. Exciting times.
    The Chairman. Thank you. Senator, do you have any opening 
statement?

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator  Ben Nelson. I would ask that my more complete 
opening statement be included in the record. Let me say first I 
appreciate very much, Mr. Chairman, you having this hearing 
today. Coming from the State of Nebraska we don't have to worry 
much about our volcanoes. We're not too concerned in the state 
about experiencing a loss due to a tsunami or a hurricane 
either, but we recognize that the number one mission of our 
government is to protect our citizens.
    While we may have other natural hazards we have to deal 
with, we're certainly mindful, and sensitive, to hazards that 
others experience. I'm very pleased to be able to be here 
today. We recognize that the hazards of volcanoes are not 
limited to those on the ground, but also to those who fly in 
the air as well. We all have an abiding interest in making sure 
that we're doing everything that we can in this Committee to 
protect the public.
    I thank you very much, and I thank the witnesses as well.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. E. Benjamin Nelson, U.S. Senator from 
                                Nebraska

    Coming from the State of Nebraska, we don't have to worry about 
volcanoes, tsunami, or hurricanes. But we do know that the number one 
mission of the government is to protect its citizens, whether through 
military strength, homeland security, or ordinary warnings about 
environmental hazards. It is this duty to protect through warnings that 
is at the heart of today's hearing on volcano hazards to aviation.
    Our witnesses today will tell us about the Nation's 169 
geologically active volcanoes, and the dangers they pose. Frankly, when 
we think of volcano hazards, we assume they pose a danger to people on 
the ground, those who live and work near these sleeping giants. But 
each year, up to 50,000 aircraft pass near potentially active 
volcanoes. Should one of those volcanoes erupt, the consequences are 
dangerous, as Captain Terry McVenes will tell us.
    In April 2005, the U.S. Geological Survey issued ``An Assessment of 
Volcanic Threat and Monitoring Capabilities in the United States: 
Framework for A National Volcano Early Warning System (NVEWS).'' The 
NVEWS report states that many hazardous and potentially hazardous 
volcanoes are left largely under- or un-monitored, including 18 very 
high threat volcanoes and 37 high threat volcanoes. The report 
concludes that full monitoring of these volcanoes and more basic 
monitoring of moderate and low threat volcanoes through a National 
Volcano Early Warning System (NVEWS) will allow the U.S. to protect 
both people and property proactively.
    I hope that we will learn that significant progress has been made 
since last April, and that there is a plan for systematically 
addressing the priority monitoring challenges. However, I fear that 
this is basically a question of money, money that the Geological Survey 
doesn't have. The FY 2006 budget for the USGS Volcano Hazards Program 
is $21.5 million. The FY request is $21.7 million, an increase of 
$206,000. According to your budget documents, the agency hopes to 
rebuild and improve monitoring at four sites. However, there will be no 
wide scale implementation of the NVEWS framework. The plan for FY 2006-
2007 supports no new monitoring in 2006 and new monitoring at only one 
volcano, Pagan volcano in the Marianas, in FY 2007.
    I look forward to our witnesses' candid assessment of what is truly 
needed to protect our citizens on the ground and in the air.

    The Chairman. They just sent this to me. That picture was 
taken just before sunset yesterday, so the volcano is semi-
active again, Doctor. Let's proceed in the order that's on the 
schedule. Captain McVenes, may we have your testimony. All of 
your statements, by the way, will appear in full as though read 
and our statements likewise will appear as though read. But 
we're under a time constraint unfortunately because the votes 
start at 10:30. But, Captain, will you proceed, please.

   STATEMENT OF CAPTAIN TERRY McVENES, EXECUTIVE AIR SAFETY 
             CHAIRMAN, AIRLINE PILOTS ASSOCIATION, 
                         INTERNATIONAL

    Captain McVenes. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am Captain Terry McVenes, Executive Air Safety 
Chairman of the Air Line Pilots Association (ALPA), which 
represents more than 60,000 professional pilots who fly for 39 
airlines here in the United States and Canada. ALPA appreciates 
the opportunity to discuss volcanic hazards and the impacts on 
aviation.
    Of the more than 1,330 volcanoes worldwide that have 
demonstrated activity over many thousands of years, 
approximately 500 of them have recent histories of events and 
action. However constant seismic monitoring is only available 
on 174 volcanoes and yet, worldwide, there are 55 to 60 
eruptions per year. From 1980 to 2005, more than 100 turbojet 
aircraft have sustained volcanic ash damage, with repair costs 
in excess of $250 million dollars. Seven of these encounters 
caused temporary engine failure, and 3 of the aircraft involved 
temporarily lost all engine power. These engine failures took 
place as far away as 600 miles from the erupting volcano and 
more than 1,500 passengers were in jeopardy.
    Volcanoes around the Pacific form what's referred to as the 
Pacific Ring of Fire. Most of the ring volcanoes are 
unmonitored for seismic activity yet some of the world's 
busiest air navigation routes crisscross these areas. 
Consequently turbojet aircraft encountering volcanic ash could 
be in grave danger.
    I have brought with me at your request an actual recording 
of a KLM Flight. A Boeing 747 with more than 240 passengers 
onboard, that encountered volcanic ash, during the 1989 
eruption of Mt. Redoubt near Anchorage, Alaska. Listen closely 
to the radio transmissions between Anchorage Center, which is 
the air traffic control facility for that region, and KLM 867.
    So what happened here? All four engines and many electrical 
systems failed in only 59 seconds. The cockpit displays became 
an electronic nightmare. Ash was shorting electronic circuit 
boards. This four-engine jumbo jet was a glider for several 
minutes. Although all engines eventually were able to be 
restarted, they all delivered reduced performance. In fact the 
last engine only restarted just before landing in Anchorage. 
They did finally land safely, but there was $80 million dollars 
in damage to the airplane. Had the crew's emergency procedures 
failed, more than 200 fatalities and a total hull loss could 
have been the result.
    In a 1982 encounter near Jakarta, Indonesia, a British 
Airways Boeing 747 had a similar experience at night when Mt. 
Galungung erupted and propelled ash to flight altitudes without 
warning. That British Airways crew was surrounded in ash. They 
lost communications because of the electronic interference, all 
four engines flamed out, and was left without assistance until 
just before an emergency landing. With communications lost, 
most aircraft systems failed, and the crew was only able to 
navigate to safety visually. They successfully avoided what 
could have been another fatal consequence.
    There has been progress. Today both geostationary and polar 
orbiting satellites can detect eruption gases and cloud 
movement. However, industrial priorities must be constantly 
justified and Federal budgets annually adjusted to assure that 
these capabilities continue on future replacement satellites. 
Shifting priorities and shrinking Federal budgets have 
repeatedly lessened these satellite capabilities in recent 
years.
    There remain some problems to be addressed. In spite of the 
satellite umbrella, seismic monitors are needed around the 
world, especially in sparsely populated areas where 
communications are not fully developed. The Mariana Islands, 
for example, have volcanoes throughout their territory. Mt. 
Anatahan, the most active, has only minimal seismic monitoring 
plus a backup instrument on nearby Pagan. It has had eruptions 
for the last 3 years, including a stretch of five straight 
months of activity propelling ash clouds to cruise flight 
altitudes. Flights to these islands have been disrupted, and 
there have been deviations of commercial traffic flying air 
routes over the islands. Though Guam and Saipan are usually 
excellent en route alternates for over flights, volcanic 
activity introduces special emergency fuel and weight limiting 
procedures for long-range twin-engine commercial aircraft. 
These special procedures and diversions have cost carriers in 
the millions of extra operating dollars. In addition, U.S. 
military operations around Guam have been frequently postponed 
or canceled, driving DOD expenditures there higher. A wider 
array of monitoring in the Marianas could improve 
predictability, allow earlier warnings for the air traffic 
system, and reduce unnecessary reroutes and/or cancellations in 
this important area of the world.
    So to summarize, we continue to have multiple ash 
encounters by airliners every year. Potentially active 
volcanoes, especially in remote locations need to be 
seismically monitored 24 hours a day, 7 days a week. Geologic 
observatories must coordinate closely with regional air traffic 
authorities to ensure that warnings are disseminated as soon as 
possible. Commercial operators should ensure that flight crew 
training curricula address the normal and emergency procedures 
for hazard avoidance and inadvertent encounters. The Congress 
and U.S. Government agencies should be cognizant of the 
volcanic hazard and its impacts on aviation, in order to 
understand the technical and financial support required to 
maintain the necessary detection that is required and to 
provide those resources. Aspects of this program are shared by 
the U.S. Geological Survey, the Smithsonian Institution, the 
National Oceanic and Atmospheric Administration (NOAA) and its 
National Weather Service (NWS), and the Federal Aviation 
Administration (FAA). All of their administrative budgets must 
be annotated in support of shares of that responsibility.
    In conclusion, commercial turbojet aircraft are certified 
with multiple redundant systems to prevent total system 
failures. Yet even they can be rendered helpless by volcanic 
ash. Therefore, detection, prediction and dissemination 
strategies are essential to avoid the hazard. Either we will 
identify a turning point in our understanding of the volcanic 
hazards and the impacts on aviation, or we will continue on our 
present course and accept the hazards of the encounters that we 
have reviewed. Unfortunately, continuing on our present course 
may produce fatal results.
    Mr. Chairman, I appreciate the opportunity to share ALPA's 
views on this important matter, and I will be happy to answer 
any questions you and the other Members of the Subcommittee may 
have. Thank you.
    [The prepared statement of Captain McVenes follows:]

   Prepared Statement of Captain Terry McVenes, Executive Air Safety 
          Chairman, Air Line Pilots Association, International

    Mr. Chairman and Members of the Subcommittee, I am Captain Terry 
McVenes, Executive Air Safety Chairman of the Air Line Pilots 
Association (ALPA), which represents more than 60,000 professional 
pilots who fly for 40 commercial airlines in the United States and 
Canada. ALPA appreciates this opportunity for me to appear before you 
today to join with members of government and the aviation community to 
discuss volcanic hazards and the impacts on aviation.
Discussion
    Historically, 1,330 volcanoes worldwide have demonstrated 
indications of activity over many thousands of years. More than 500 of 
them have shown some activity in recent history, but constant 
monitoring is currently only available on 174 volcanoes and yet, 
worldwide, there are 50 to 60 eruptions per year. From 1980 to 2005, 
more than 100 turbojet aircraft have sustained at least some damage 
after flying through volcanic ash clouds, resulting in cumulative 
damages of over $250 million dollars. At least 7 of these encounters 
have resulted in temporary engine failure, with 3 aircraft temporarily 
losing power from all engines. Engine failures have occurred at 
distances from 150 to 600 miles from the erupting volcanoes. Ash 
related aircraft damages have been reported as far as 1,800 miles from 
a volcano eruption.
    The eruption of a volcano located in a densely populated area of 
the world can produce catastrophic consequences for those in its 
vicinity. Because the ferocity of volcanic eruptions bring potential 
danger to life and property, the most active of them usually have 
seismic monitors near them, and networks of observatories and 
scientists with reactive plans to transmit warnings, evacuate 
population and protect life. Volcanic activity is usually obvious to 
those in close range and public reports may be as plentiful as those 
from the scientific community. As a necessary adjunct to those plans, 
aviation authorities must be notified so that air traffic may be 
rerouted to avoid potential danger.
    Volcanoes located in sparsely populated regions present a vastly 
different problem because most are unmonitored, and reports of activity 
may be either extremely random or nonexistent. Warnings to the aviation 
community may never be given, and the first indication for an aircraft 
in the area may be an inadvertent encounter with the ash cloud. Many of 
the volcanoes around the rim of the Pacific Ocean fall into that 
category. Volcanoes along the western coasts of North and South 
America, the Alaskan Aleutians, the Kamchatkan Peninsula, and the Asian 
coastal regions South to Australia, form what geologists refer to as 
the Pacific Ring of Fire. The majority of the Ring's volcanoes are 
unmonitored, yet some of the world's busiest air navigation routes 
crisscross these areas. Turbojet aircraft exposed to heavy 
concentrations of volcanic ash are in grave danger. Multi-engine 
commercial aircraft encountering ash clouds have suffered severe 
consequences as a result. As an example, KLM Flight 867, a Boeing 747 
with more than 240 passengers aboard, encountered the 1989 eruption of 
Mt. Redoubt near Anchorage, Alaska. Review these transmissions between 
Anchorage Center, the air traffic control facility for that region, and 
KLM 867 . . .
Video/Voice/Recording plays for 57 seconds for Members and audience at 
        hearing . . . 
Pilot KLM B-747--``KLM 867 heavy is reaching (flight) level 250 heading 
        140''

Anchorage Center--``Okay, Do you have good sight on the ash plume at 
        this time?''

Pilot KLM B-747--``Yea, it's just cloudy it could be ashes. It's just a 
        little browner than the normal cloud.''

Pilot KLM B-747--``We have to go left now . . . it's smoky in the 
        cockpit at the moment sir.''

Anchorage Center--``KLM 867 heavy, roger, left at your discretion.''

Pilot KLM B-747--``Climbing to (flight) level 390, we're in a black 
        cloud, heading 130.''

Pilot KLM B-747--``KLM 867 we have flame out all engines and we are 
        descending now!''

Anchorage Center--``KLM 867 heavy anchorage?

Pilot KLM B747--``KLM 867 heavy we are descending now . . . we are in a 
        fall!''

Pilot KLM B-747--``KLM 867 we need all the assistance you have sir. 
        Give us radar vectors please!''

    To classify this encounter as one presenting grave danger for those 
240 passengers and that crew is an understatement! All four engines of 
this aircraft failed within 59 seconds! A false cargo compartment fire 
warning indication required special attention by the crew. All normal 
airspeed indications failed! The avionics compartments containing all 
of the radio, radar, electronic systems monitoring, and communications 
systems, all overheated and individual systems failed. The 
sophisticated electronic cockpit displays became an electronic 
nightmare. While ash was contaminating the engines and causing them to 
flame out, it was also contaminating electrical compartments and 
shorting electronic circuit boards. This four engine jumbo jet was 
essentially a glider for several minutes until the crew was able to 
individually restart engines. Three of the engines eventually restarted 
but delivered reduced performance. The fourth engine eventually came on 
line when the aircraft was on final approach to Anchorage. Although the 
crew landed safely, the encounter caused $80 million dollars damage to 
the airplane. Under only slightly different circumstances, 240 plus 
fatalities and a total hull loss could have been the result.
    KLM 867 was only one of several commercial aircraft exposed to 
varying amounts of damage during several days of volcanic activity from 
Mt. Redoubt. Anchorage is one of the world's busiest airports for both 
passengers and cargo. The eventual economic impact of aircraft damages, 
cargo delays, passenger flight delays and cancellations, and general 
disruption to the Alaskan economy was staggering. Every commercial 
aviation operation in or through that territory suffered economic 
consequences.
    Mt. Redoubt was monitored, and the system of warnings was 
activated, but the capability to detect and predict the ash movement, 
and to track the cloud, was not as sophisticated in 1989 as it has 
become today. Nor were the commercial flight crews as aware of the 
hazard, or as specifically trained to deal with avoidance or escape, as 
many have been trained to do today.
    In an earlier encounter near Jakarta, Indonesia, a British Airways 
Boeing 747 had a similar experience at night when Mt. Galungung erupted 
and propelled ash to flight altitudes without warning. That BA crew was 
enveloped in ash, lost communications because of the electronic 
interference, flamed out all four engines, and was left without 
assistance until just before an emergency landing. With communications 
lost, most aircraft systems failed, and pure visual pilotage to 
navigate to safety, they also successfully avoided what could have been 
fatal consequences.

Progress
    The capability for today has improved. Both geostationary and polar 
orbiting satellites employ sensors to detect eruption gases and to 
depict cloud movement. However, industrial priorities must constantly 
be justified and funding made available to ensure that those 
capabilities continue on future replacement satellites. Shifting 
priorities and shrinking Federal budgets have lessened the satellite 
capabilities in recent years. Operational plans are employed throughout 
the world to maintain communications priorities to transmit volcanic 
ash hazard warnings and notices within the aviation community. Since 
1989, two international volcanic ash and aviation safety conferences 
have been held to bring the scientific and aviation communities 
together to refine and improve prediction, detection, and monitoring of 
the hazard; and to improve training, operational procedures, and 
communications and warning strategies within the aviation community.

Remaining Problems to Be Addressed
    In spite of the satellite umbrella, seismic monitors are needed 
around the world, especially in sparsely populated areas where 
communications are not fully developed. The Mariana Islands, for 
example, have volcanoes throughout their territory. Mt. Anatahan, the 
most active, has only minimal seismic monitoring plus a backup 
instrument on nearby Pagan. It has had eruptions for the last three 
years, including a stretch of five straight months of activity 
propelling ash clouds to cruise flight altitudes. Flights to the 
islands have been disrupted, and there have been deviations of 
commercial traffic flying air routes over the islands. Though Guam and 
Saipan are usually excellent en route alternates for over flights, 
volcanic activity introduces special emergency fuel and weight limiting 
procedures for long-range twin-engine commercial aircraft. These 
special procedures and diversions have cost carriers in the millions of 
extra operating dollars. In addition, U.S. military operations around 
Guam have been frequently postponed or cancelled, driving DOD 
expenditures there higher. A wider array of monitoring in the Marianas 
could improve predictability, allow earlier warnings for the air 
traffic system, and reduce unnecessary reroutes and/or cancellations in 
this important area of the world.

Lesson Summary
  <bullet> Potentially active volcanoes, especially in remote 
        locations, should be seismically monitored 24/7.

  <bullet> Geologic observatories must coordinate closely with regional 
        air traffic authorities to ensure that warnings are 
        disseminated as soon as possible.

  <bullet> Commercial operators should ensure that flight crew training 
        curricula address the normal and emergency procedures for 
        hazard avoidance and inadvertent encounters.

  <bullet> The Congress and U.S. Government agencies should be 
        cognizant of the volcanic hazard and its impacts on aviation, 
        in order to understand the technical and financial support 
        required to maintain the necessary detection and prediction 
        resources. Aspects of this program are shared by the U.S. 
        Geological Survey (USGS), the Smithsonian Institution, the 
        National Oceanic and Atmospheric Administration (NOAA) and its 
        National Weather Service (NWS), and The Federal Aviation 
        Administration (FAA). All of their administrative budgets must 
        be annotated in support of shares of that responsibility.

Conclusion
    Commercial turbojet aircraft are certified with multiple redundant 
systems to prevent total system failures. Yet even they can be rendered 
helpless by volcanic ash. Therefore, detection, prediction and 
dissemination strategies are essential to avoid the hazard. Either we 
will identify a turning point in our understanding of the volcanic 
hazards and the impacts on aviation, or we will continue on our present 
course and accept the hazards of the encounters that we have reviewed. 
Continuing on our present course may produce fatal results.
    Mr. Chairman, I appreciate the opportunity to share ALPA's views on 
this important matter, and I will be happy to answer any questions you 
and the other Members of the Subcommittee may have.

    The Chairman. Thank you very much, Captain. Dr. 
Eichelberger.

      STATEMENT OF DR. JOHN C. EICHELBERGER, PROFESSOR OF 
         VOLCANOLOGY, UNIVERSITY OF ALASKA FAIRBANKS; 
            COORDINATING SCIENTIST, ALASKA VOLCANO 
                          OBSERVATORY

    Dr. Eichelberger. Thank you, Mr. Chairman, and Members of 
the Subcommittee for this opportunity to discuss prediction and 
prevention of volcanic hazards. I would like to focus on the 
Alaska region and for obvious reasons that's where most of the 
U.S. volcanoes are and the Alaska Volcano Observatory which has 
an unusual aspect of direct involvement of the academic 
research community. I am Coordinating Scientist of AVO, and so 
I lead the University portion of the AVO effort. And as Senator 
Stevens pointed out, we're now dealing with a major eruption of 
Augustine volcano. It's rapidly extruding lava. It had an 
explosive phase early on and could go back to major explosions 
really at any time.
    Americans tend to think of their 49th state as remote, 
although remoteness is in the eye of the beholder. Most people 
don't think of their homes as remote. It surprises people to 
discover that flights between eastern Asia and North America 
pass over Alaska, not Hawaii. Thus, some 25,000 people traverse 
Alaska's skies every day and Anchorage ties Tokyo in air 
freight. Along this route are about 100 volcanoes capable of 
blasting ash to flight levels, with the potentially fatal 
results that Captain McVenes described. Some of these volcanoes 
are in Japan, many in the Russian Far East, and about half in 
Alaska.
    It is not enough to justify a program by pointing out a 
danger. The more important question is whether something can be 
done about it. And for volcanoes, this means getting people out 
of the way. Happily, prediction of eruptions is possible 
through geophysical monitoring, so volcanology is a case where 
a modest investment produces a large benefit in reducing the 
impact of catastrophic natural events.
    For the airlines, adequate monitoring means knowing when 
and where it is safe to fly. For communities, it means knowing 
when to protect facilities, how to advise people on health 
risks and when to evacuate. By making information on the 
condition of Augustine volcano, instantly available to 
everyone, AVO, I believe, has vastly reduced the disruption 
caused by the current activity.
    Our observatory is unique in the world in that it is a 
thoroughly collaborative undertaking of Federal and State 
government scientists, and, key from my standpoint, faculty and 
students of the university. The strengths of this approach are 
diversity of expertise, the connectedness of the university to 
local communities, government agencies, and the U.S. scientific 
community, and--most of all from the university's perspective--
the involvement of students in exciting science for immediate 
public benefit and the education of the next generation of 
geoscientists.
    The challenges of Alaska which our Chairman is well aware 
of, have kind of defined our areas of leadership. We have 
developed the means to geophysically monitor volcanoes in 
remote harsh environments. We've been the first to use 
satellite remote sensing operationally for volcano monitoring.
    We have educated a diverse group of talented geoscientists 
who serve in public, private and academic sectors, not just in 
natural hazard mitigation but also in areas of mineral and 
energy resources.
    We now have 30 volcanoes geophysically monitored and no 
other observatory in the world comes close to that.
    Finally, and here again our academic face helps us, we're 
the most international of observatories, linking with our 
Russian colleagues to cover the entire North Pacific. For the 
university, having a strong core program in volcano monitoring 
leads to success in related areas. Spin-offs from this work 
include a new model for particulate plumes; new satellite 
remote sensing techniques; international volcano research 
drilling in Japan (we actually drilled through the conduit of 
an active volcano); geothermal energy research in Alaska (which 
I think is a bright hope for the future); and collaborative 
volcanological education and research in the Russian Far East 
and Alaska--the latter is supported by the National Science 
Foundation and the Russian Academy of Sciences involving 
students from all over Russia and the U.S. These NSF programs 
have opened a new bright window in our common border with 
Russia, which I think is very important.
    The immediate challenge for the Alaska Volcano Observatory, 
illuminated by the current eruption, is stability of Federal 
support. We hope that through improved coordination among the 
Departments of Interior, Transportation and Commerce and the 
National Volcano Early Warning System that Dr. Quick is going 
to discuss that will become possible.
    The need for a combination of instrumented vigilance, 
advances in technology and science of volcano monitoring, and 
geoscience education will continue as long as humankind exists 
on this dynamic planet. The benefits are not only property and 
lives saved, but in knowledge gained and in students inspired. 
Thank you.
    [The prepared statement of Dr. Eichelberger follows:]

     Prepared Statement of Dr. John C. Eichelberger, Professor of 
 Volcanology, University of Alaska Fairbanks; Coordinating Scientist, 
                       Alaska Volcano Observatory

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to discuss the natural hazard threat that volcanoes pose to 
international aviation over Alaska, to Alaska's communities, and to the 
role that the Alaska Volcano Observatory plays in mitigating this 
hazard. James Quick of the U.S. Geological Survey, on behalf of Acting 
Director Patrick Leahy, is reporting at this hearing on the national 
program of volcano hazard mitigation. I would like to focus on some of 
the special and unusual aspects of this work in the Alaska region by 
the Alaska Volcano Observatory (AVO), an observatory which itself has 
some unusual aspects. I am Coordinating Scientist of AVO, and as such 
lead the University of Alaska portion of the AVO effort. This is an 
important time for such a report, as we are now dealing with an 
explosive eruption in Alaska's most populous region, as well as with 
unrest at other volcanoes. I believe that AVO's successful prediction 
of and response to the eruption of Augustine Volcano makes the case for 
continued support of this effort all the more compelling.
    Americans tend to think of their 49th state as remote, although 
remoteness is in the eye of the beholder. A remote place is far from 
home and usually at the corner of a map. But Earth does not have 
corners. It surprises people to discover that flights between eastern 
Asia and North America pass over Alaska, not Hawaii. Thus, some 25,000 
people traverse Alaska's skies every day and Anchorage ties Tokyo 
(Narita) in landed airfreight. Along this route are about 100 volcanoes 
capable of blasting ash to flight levels, some in Japan, many in 
Russia, and about half in Alaska. However, Alaska's volcanoes are 
remote in the sense of getting geophysical equipment installed and 
getting data out. They provide unforgiving environments for hi-tech 
instrumentation. These facts, combined with Alaska's small population, 
define the mission of AVO and explain its areas of international 
leadership in volcanology.
    Of course, it is not enough to justify a program by pointing out a 
danger. The more important question is whether something can be done to 
reduce the impact of a natural event in terms of damage to property and 
loss of life. For volcanoes, this often means getting people out of 
harm's way, which in turn requires either immediate or preferably 
advance warning of eruptions. Happily, prediction of eruptions in a 
useful timeframe is often possible for volcanoes through observation of 
increased seismicity, subtle inflation, and increased heat and gas 
output. These changes are detected through surface seismic and GPS 
networks, through surveillance flights, and through sophisticated 
satellite remote sensing techniques. In addition to when, it is vital 
to know how a volcano will erupt, and for this we rely on the lessons 
of history that geology of the volcano provides.
    Ash clouds do not respect immigration procedures, and so 
comprehensive monitoring requires close coordination with international 
counterparts. Finally, hazard information must be disseminated widely, 
freely, and instantly, as is now possible through the Internet and 
World Wide Web. These activities, then, comprise the Alaska Volcano 
Observatory. Except for very large eruptions--infrequent but they do 
happen, and Alaska did have the world's largest eruption of the 20th 
century in 1912--potential losses are less than for large earthquakes 
or hurricanes. But volcanology is a case where a modest investment 
produces a large benefit in reducing the impact of catastrophic events.
    For the airlines, the result of AVO's vigilance is knowing when to 
cancel flights during an eruption, knowing when it is safe to fly, or 
knowing when to take on extra fuel and less cargo if diversion may be 
necessary. Indeed, the availability and reliability of volcano eruption 
warnings is a factor in cargo airlines choosing to use Anchorage as a 
refueling stop. For communities, it means when to shut down or protect 
facilities from ash and how to advise people on health risks.
    How does one carry out a sophisticated and diverse monitoring 
program in a state with a small population? The way Alaskans persevere 
through other challenges: cooperation. The Alaska Volcano Observatory 
is unique in the U.S. and probably the world in that it is a thoroughly 
collaborative undertaking of Federal scientists, state scientists, and 
university faculty and students. There are many rewards to this 
approach, despite its seeming administrative complexity. As the USGS 
Acting Director cites, the USGS has a Congressional mandate to mitigate 
geologic hazards, of which volcanism is an important component. The 
USGS manages AVO and supports it within its national pool of 
volcanological talent. The Alaska Division of Geological and 
Geophysical Surveys (ADGGS) has a similar mandate at the state level, 
and is naturally more attuned to state priorities. In addition, ADGGS 
maintains extensive knowledge and databases of state geology, and is a 
logical choice for disseminating this information to the public. The 
University of Alaska has the unique role within the partnership of 
education, both in terms of introducing students to societally engaged 
science and in producing the next generation of geoscientists. It also 
provides a fertile intellectual environment that is more difficult to 
maintain in government agencies. All three partners have their 
specialties, though they also all participate in the monitoring and 
scientific aspects of the operation.
    Strengths of this unique approach are the diversity of expertise it 
makes available, the connectedness of the observatory to local 
communities, government agencies, and the U.S. scientific community, 
and--most of all from the university's perspective--the involvement of 
students in exciting science for immediate public benefit. It is worth 
noting that volcanology programs funded by other agencies such as the 
National Science Foundation (NSF) and NASA cannot provide this 
experience because geophysical monitoring, the task of turning 
geoscience data quickly into information for safety decisions, is 
solely the mission of the USGS Volcano Hazards Program.
    The challenges of Alaska have defined AVO's areas of leadership. We 
have pioneered the installation of stand-alone geophysical stations 
that can operate without attention for two to three years in a harsh 
environment, telemetering real-time seismic and GPS data via radio, 
satellite, and telephone links to Anchorage and Fairbanks. We have 
initiated the first operational satellite monitoring of active 
volcanoes, sometimes catching the very earliest precursory activity 
because infrared-imaging satellites (for example, weather satellites) 
can peer down into deep craters. We have contributed much to the 
scientific community's understanding of how volcanoes work. And we have 
educated a diverse cadre of talented geoscientists who serve in public, 
private and academic sectors, not just in natural hazard mitigation and 
research, but also in acquisition of mineral and energy resources. We 
have also developed volcanology's most acclaimed website, which serves 
the dual purposes of dissemination of hazard information and, for the 
Nation as a whole, science education. We are the most international of 
observatories, having worked with our Russian colleagues to develop 
monitoring capabilities first in Kamchatka and now in the Kurile 
Islands. Russian volcanoes frequently put ash into areas where the U.S. 
has aviation safety responsibilities. The most amazing fact about AVO 
is the number of volcanoes geophysically monitored: 30. No other 
observatory in the world comes close.
    For the university, having a strong core program in volcano 
monitoring leads to success in related areas of endeavor. Spin-offs 
from this work include a new model for particulate dispersal in the 
atmosphere; new satellite remote sensing techniques; volcano research 
drilling in Japan funded by the international scientific community; 
geothermal energy research in Alaska; and collaborative volcanological 
education and research in the Russian Far East and Alaska, supported by 
NSF and the Russian Academy of Sciences and involving students from all 
over Russia and the U.S. These NSF programs have opened a new bright 
window in our common border with Russia.
    The immediate challenge for the Alaska Volcano Observatory is 
adequate funding, not so much in terms of dollars though a modest 
increase is essential, but in increased stability. The USGS Volcano 
Hazards Program has not received sufficient funds to cover the expanded 
role of monitoring volcanoes that threaten only aircraft. Hence, 
Congress has annually assigned about half of AVO's budget, representing 
mitigation of the ash hazard to aircraft, to the FAA, which then 
transfers the funds through the Department of Commerce to USGS. This 
cumbersome process precludes long-term planning. This year we have a 
serious funding shortfall just as Augustine Volcano emerged from two-
decade slumbers and volcanoes Spurr, Veniaminof, Cleveland, and Korovin 
became ``hot.''
    Alaska Volcano Observatory is the most obvious example of the 
evolving role in natural hazard mitigation of the USGS Volcano Hazards 
Program. Before AVO, no ``remote'' volcanoes were monitored. Changing 
perceptions of remoteness are a natural consequence of increasing human 
population and changing patterns of human travel, specifically, 
reliance on long-distance, great-circle-route air travel. Fortunately, 
evolving technology has kept pace and gives us the tools to mitigate 
newly recognized hazards. The need for a combination of instrumented 
vigilance, advances in technology and science of volcano monitoring, 
and geoscience education will continue as long as humankind exists on 
this dynamic planet. The benefits are in knowledge gained as well as in 
property and lives saved.

    The Chairman. Our next witness is Mr. James Quick, Program 
Coordinator for the Volcano Hazards Program at USGS. Dr. Quick.

           STATEMENT OF DR. JAMES E. QUICK, PROGRAM 
          COORDINATOR, VOLCANO HAZARDS PROGRAM, U.S. 
         GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Dr. Quick. Mr. Chairman and Members of the Subcommittee, 
thank you for this opportunity to discuss the threat that 
volcanoes pose to aviation and our vision for a national 
volcano early warning system to monitor the Nation's volcanoes 
at levels commensurate with the threat that each poses.
    The message that I hope to convey is that volcanic 
eruptions even at seemingly remote volcanoes pose a serious 
threat to aviation. But this threat can be effectively 
mitigated by strategic improvement of volcano monitoring 
capability coupled with continued improvement in interagency 
communication and response plans.
    Currently Mount St. Helens in Washington, Kilauea in 
Hawaii, and Augustine in Alaska are erupting. And several other 
volcanoes are being closely watched for possible renewed 
eruptive activity.
    Most people are aware of the hazards that erupting 
volcanoes create on the ground, including mudflows, fiery 
avalanches, and lava flows such as those that could reach in 
less than 2 hours the highly developed Kona Coast on the flanks 
of Mauna Loa in Hawaii.
    Less well known by the public is the threat posed to 
aviation by erupting volcanoes. Volcanoes threaten aviation 
safety when magma erupts explosively and plumes of small pieces 
of volcanic rocks, minerals, and glass, what we term ash, are 
ejected high into the atmosphere and drift for long distances 
across air routes.
    For example, the 1992 eruption of Mt. Spurr in Alaska was 
tracked on satellite images for more than 3,000 miles downwind 
of the volcano over Canada and the Great Lakes region, 
disrupting air traffic as far east as Cleveland, Ohio.
    Many major air routes traverse the world's most 
volcanically active regions, and numerous instances of aircraft 
flying into volcanic ash clouds have demonstrated the life-
threatening and costly damages that can be sustained.
    The practical mitigation strategy is for aircraft to avoid 
airspace containing volcanic ash. Ash avoidance is not a simple 
matter. It involves elements of: ground-based volcano 
monitoring, satellite-based detection of ash clouds, modeling 
cloud movements in the atmosphere, and coordinated 
communication protocols among volcanologists, meteorologists, 
air traffic controllers, dispatchers and pilots.
    As the USGS has increasingly recognized that volcano 
monitoring is needed to protect against aviation hazards, we 
have adjusted our monitoring program accordingly. For example, 
although the ground population is sparse in the volcanically 
active Aleutian Islands of Alaska, the risk to aviation is 
high. More than 200 flights carry roughly 25,000 people over 
Northern Pacific air routes on a daily basis. With the support 
of Senator Stevens, the Alaskan Volcano Observatory, which is a 
partnership between USGS, the University of Alaska Fairbanks, 
Geophysical Institute, and the State of Alaska has 
systematically expanded its monitoring into the Aleutian chain, 
from four instrumented volcanoes in 1996, to 30 at the end of 
this past summer's field work.
    Impending volcanic eruptions can be forecast, and warnings 
issued before the hazardous event occurs. This capability was 
recently demonstrated at Augustine volcano near Alaska's most 
populated area, the Cook Inlet, when the Alaska Volcano 
Observatory issued a successful forecast on January 10, 2006.
    Such forecasts and warnings depend on telemetered, real-
time data from adequate arrays of different types of monitoring 
instruments located on and near volcanoes. No single 
geophysical monitoring technique or system can confidently 
provide timely alerts of eruptions.
    In order to meet the needs of the aviation community, our 
goal is to notify the appropriate FAA center of an ash-
producing eruption within 5 minutes of its onset. This level of 
notification requires 24/7 operation at U.S. Volcano 
Observatories, and sufficient ground-based monitoring networks. 
Once an eruption is in progress the USGS, NOAA, FAA and the Air 
Force Weather Agency share data and coordinate their warning 
messages, so that necessary information reaches the cockpit 
quickly.
    There are 169 active volcanoes in the United States. In 
order to focus resources among these volcanoes, the USGS 
recently published an evaluation of the Nation's volcanoes 
monitoring needs based on a systematic assessment of the 
societal threats they pose. This publication is the scientific 
foundation for a national volcano early warning system and 
identifies as high priorities for improved monitoring 19 
volcanoes in Alaska, and the Northern Mariana Islands, that 
pose substantial threats to aviation but that have no real-time 
ground-based monitoring, and 9 Cascade volcanoes that pose 
threats to both aviation and ground communities, but have 
inadequate, or antiquated networks.
    In conclusion, please allow me to reiterate that there are 
no remote volcanoes when we consider aviation hazards. 
Mitigation of this risk requires appropriate volcano 
monitoring, timely analysis and efficient teamwork by multiple 
agencies.
    The USGS will continue to do its part by providing 
scientific information based on reliable monitoring data.
    Thank you, Mr. Chairman, for providing the opportunity to 
present this testimony and I'll be pleased to answer any 
questions that you may have.
    [The prepared statement of Dr. Quick follows:]

Prepared Statement of Dr. James E. Quick, Program Coordinator, Volcano 
  Hazards Program, U.S. Geological Survey, Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to discuss the natural hazard threat that volcanoes pose to 
aviation, the U.S. Geological Survey role in volcano research, 
monitoring, and eruption warnings, and our national strategy for a 
proactive, fully-integrated volcano hazard mitigation effort.

Overview of Volcanic Hazards Program
    For more than 125 years, USGS has provided the Department of the 
Interior, the Nation, and the world with relevant science to guide 
policy and safeguard society. This legacy of scientific excellence is 
reinforced by the authority afforded USGS under the Disaster Relief Act 
(Pub. L. 93-288, popularly known as the Stafford Act) as the lead 
Federal agency with responsibility to provide notification for 
earthquakes, volcanic eruptions, and landslides, to enhance public 
safety, and to reduce losses through effective forecasts and warnings 
based on the best possible scientific information.
    The United States is home to 169 volcanoes considered to be active, 
more than any other country in the world. The USGS has recently 
completed a systematic assessment of the relative societal threat posed 
by each of the Nation's 169 geologically active volcanoes. For each 
volcano, the study determined a level of societal threat based on an 
evaluation of the hazards that could be anticipated and the societal 
exposure to those hazards. This study, An Assessment of Volcanic Threat 
and Monitoring Capabilities in the United States: Framework for a 
National Volcano Early Warning System (NVEWS), the recommendations of 
which are discussed later in my testimony, is being used to guide long-
term improvements to the national volcano-monitoring infrastructure 
operated by USGS and its partners. The USGS and its Federal, State, and 
university partners operate five volcano observatories to monitor 
eruptive activity and unrest at 50 volcanoes in the Cascade Range, 
Hawaii, Alaska, California, and Yellowstone National Park. Currently, 
three U.S. volcanoes are erupting (Mount St. Helens in Washington, 
Kilauea in Hawaii, and Augustine in Alaska), and two are being closely 
watched for unrest or renewed eruptive activity, Mauna Loa in Hawaii 
and Anatahan in the Northern Mariana Islands.
    The threats that volcanoes pose to populations on the ground are 
generally understood in the United States. Most people are aware of the 
hazards that erupting volcanoes create, such as lava flows, hot, 
gaseous flows of volcanic blocks and ash, and mudflows. The potential 
harm of these phenomena, in terms of loss of life and societal and 
economic disruption, are very serious considerations for communities 
near or downwind and downstream of many of the Nation's volcanoes. For 
example, lava flows from Mauna Loa Volcano, which has been exhibiting 
signs of increased unrest for two years and may be advancing toward 
eruption, can reach the highly developed Kona Coast of Hawaii in as 
little as two hours. Within the Cascade Range, 13 volcanoes pose 
significant threats to people and infrastructure on the ground. At 
Mount Shasta in California, searing avalanches of volcanic rock and gas 
could reach more than 6,000 people in the vicinity of the town of Weed 
and Mount Shasta City in less than 10 minutes. Large mudflows formed by 
melting of thick ice and snow on Mount Rainier, Mount Baker, or Glacier 
Peak in Washington could race down populated valleys at speeds of up to 
60 miles per hour, devastating communities lying in the path of the 
potentially deadly mudflows.
    With appropriate monitoring, impending volcanic eruptions can be 
forecast and warnings issued before the hazardous events occur. This 
capability was demonstrated in advance of the June 1991 eruption of 
Mount Pinatubo, Philippines--the largest volcanic eruption of the 20th 
century to affect a heavily populated area. Because the eruption was 
forecast by scientists from the Philippine Institute of Volcanology and 
Seismology (PHIVOLCS) and USGS, civil and military leaders were able to 
order massive evacuations and take measures to protect property before 
the eruption. The USGS and PHIVOLCS estimate that their eruption 
forecasts saved at least 5,000 and as many as 20,000 lives. At least 
$200 million to $275 million in losses of military aircraft and 
equipment were averted by having those assets flown to safe areas or 
covered in advance of the eruption. A more recent example of this 
successful forecasting ability was demonstrated at Augustine Volcano 
near Alaska's most populated area, the Cook Inlet. Utilizing monitoring 
networks already in place, the Alaska Volcano Observatory detected the 
onset of unrest and raised the alert level on November 29, 2005, and 
began monitoring the unrest closely to determine if activity was likely 
to escalate, plateau, or die down. Unrest continued to escalate, and 
the USGS issued an information bulletin on January 10, 2006, that 
indicated a heightened possibility of an explosive eruption within the 
``next few weeks or months.'' The following day, an eruption at 
Augustine Volcano was underway. Timely forecasts and warnings such as 
these examples depend on telemetered, real-time data from adequate 
arrays of different types of monitoring instruments located on and near 
volcanoes and on remotely sensed data transmitted by other agencies 
(e.g. GOES satellite data from National Oceanic and Atmospheric 
Administration (NOAA)).

Volcanic Threats to Aviation Safety
    Less well known by the public is the threat posed to aviation by 
erupting volcanoes. Volcanic eruptions pose a serious threat to 
aviation, but one that can be mitigated through the combined efforts of 
earth and atmospheric scientists, the aviation industry, and air-
traffic control centers. Volcanoes threaten aviation safety when magma 
erupts explosively to form clouds of small jagged pieces of rocks, 
minerals, and volcanic glass the size of sand and silt that rises miles 
above the earth's surface and is spread by winds aloft over long 
distances across flight paths of jet aircraft. Unlike the soft fluffy 
material created by burning wood, leaves, or paper, ``volcanic ash'' 
particles are angular, abrasive fragments having the hardness of a 
pocket-knife blade. Upon impact with an aircraft traveling several 
miles per minute, ash particles abrade the windscreen, fuselage, and 
fan blades in the turbine engines. In addition to the problem of 
abrasion, the melting temperature of the glassy rock material that 
comprises ash is lower than the operating temperatures of jet engines. 
Consequently, ingested ash particles can melt in hot sections of 
aircraft engines and then fuse onto critical components in cooler parts 
of the engine. An aircraft encounter with ash can result in loss of 
visibility, and failure of critical navigational and flight systems, 
and can immediately and severely degrade engine performance, resulting 
in engine flame out and total loss of thrust power.
    The volcanic-ash hazard to aviation extends the volcanic threat far 
beyond the local area or region where a volcano is located. For 
example, the 1992 eruption of Mount Spurr in Alaska produced an ash 
cloud that was tracked on satellite images for three days and more than 
3,000 miles downwind of the volcano over Canada and the Great Lakes 
region.
    Many major air routes traverse the world's most volcanically active 
regions, and numerous instances of aircraft flying into volcanic ash 
clouds have demonstrated the life-threatening and costly damages that 
can be sustained. From 1973 through 2003, 105 encounters of aircraft 
with airborne volcanic ash have been documented. This is a minimum 
number of encounters because incidents have not been consistently 
reported.
    The potential for a disastrous outcome of an ash/aircraft encounter 
has been illustrated by three dramatic encounters. The first occurred 
in 1982 when a Boeing 747--at night over water with 240 passengers--
flew into an ash cloud about 100 miles downwind from Galunggung volcano 
in Indonesia. The aircraft lost power in all 4 engines and descended 
25,000 ft. from an altitude of 37,000 ft. above sea level. After 16 
minutes of powerless descent, the crew was able to restart three 
engines and make a safe landing in Jakarta. A few weeks later, a second 
Boeing 747 with 230 passengers encountered an ash cloud from another 
eruption of the same volcano. The aircraft lost power to 3 engines and 
descended nearly 8,000 ft. before restarting one engine and making a 
nighttime emergency landing on two engines. In both cases, the aircraft 
suffered extensive damage. Fortunately, a greater human tragedy was 
averted.
    A third incident occurred in 1989 and was related to an eruptive 
event at Redoubt Volcano in Alaska. A Boeing 747 with 231 passengers 
onboard was nearing Anchorage International Airport and flew into what 
appeared to be a thin layer of weather clouds. It was actually an ash 
cloud erupted by Redoubt Volcano, approximately 150 miles distant. The 
aircraft lost power from all four engines and descended for four 
minutes over mountainous terrain. With only one to two minutes 
remaining before impact, the engines were restarted and the aircraft 
safely landed in Anchorage. Damage was estimated at more than $80 
million (in 1989 dollars).
    A decade of these harrowing events prompted action by airlines, 
dispatchers, air-traffic control, aviation meteorologists, and 
volcanologists. It had become clear to all that damaging, even life-
threatening, aircraft encounters with volcanic ash are not flukes but 
rather a persistent hazard that requires a coordinated, multi-pronged, 
operational response for the purpose of ash avoidance. Responding to 
this newly recognized hazard, the International Civil Aviation 
Organization (ICAO)--with strong participation from USGS scientists--
established procedures on a global scale for the rapid dissemination of 
information related to ash-producing eruptions and the movement of ash 
clouds to the aviation sector. One of these procedures is the use of a 
color-coded alert system for volcanic ash warnings to the air carrier 
industry. This alert system, originally developed in 1990 by USGS 
scientists at the Alaska Volcano Observatory (AVO), is now recommended 
for worldwide use by ICAO.

Areas Targeted for Increased Monitoring
    As the USGS has increasingly recognized that volcano monitoring is 
needed to protect against aviation hazards as well as the more well-
known ground hazards, we have adjusted our monitoring program 
accordingly. For example, although the ground population is sparse in 
the volcanically active Aleutian Islands of Alaska, the risk to 
aviation is high. More than 200 flights carry roughly 25,000 people 
over Northern Pacific air routes on a daily basis. Since 1996, with 
funding support from FAA, AVO has undertaken to expand its monitoring 
beyond the few volcanoes that threaten communities around Cook Inlet in 
the south central portion of the state. Over the past decade, AVO has 
systematically expanded its seismic monitoring into the Aleutian chain, 
from 4 instrumented volcanoes in 1996 to 28 at the end of this past 
summer's field work. This increase in real-time monitoring capability 
is an amazing accomplishment of both planning and execution on the part 
of AVO, a partnership between USGS, the University of Alaska Fairbanks, 
and the State of Alaska.
    AVO also developed a capability for frequent, systematic satellite 
monitoring of active volcanoes throughout the North Pacific, to 
recognize pre-eruptive thermal signals at volcanoes and to detect 
eruptive plumes. This pioneering effort at regional satellite 
monitoring complements traditional seismic monitoring and serves as a 
model to other volcano observatories worldwide. AVO is also 
contributing to National Weather Service (NWS) efforts to develop the 
Volcanic Ash Collaboration Tool, a system that uses networked 
workstations for real-time collaboration among agencies by providing 
common views of data sources and the ability to rapidly delineate and 
discuss areas of ash hazard.
    Another area where USGS recently began volcano monitoring due to 
volcanic hazards to aviation is the Commonwealth of the Northern 
Mariana Islands. Like the Aleutians, ground population is sparse on 
most of these islands, but the aviation risk is significant, including 
the threat to stealth B-2's and other military aircraft housed at 
Andersen Air Force Base on Guam. The initial eruption in May 2003 of 
Anatahan--a long dormant volcano with no real-time ground-based 
monitoring in place--was a surprise. Since then, USGS has installed a 
rudimentary seismic system with real-time data transmission and is 
working closely with local emergency management officials, the U.S. Air 
Force, NOAA, and FAA to provide eruption notifications.
    The activity at Anatahan has demanded sustained vigilance. In 2005, 
the volcano erupted to over 40,000 feet numerous times and expelled 
several million cubic yards of ash during a nearly continuous eruptive 
episode that lasted eight months. After the largest ash eruption, USGS 
provided forecasts of ash deposition on Saipan to the local government 
there. USGS also supports AFWA's mission of providing volcanic-ash 
advisories and situational awareness to DOD aviation. For example, USGS 
volcanologists furnished short-term forecasts of potential ash-plume 
heights to AFWA for use in planning and completing a critical training 
exercise in the Marianas region by the USS Nimitz Carrier Strike Group.

Interagency and International Coordination
    Ash avoidance is not a simple matter--it requires the coordinated 
efforts of volcanologists, meteorologists, air-traffic control centers, 
dispatchers, and pilots. It involves elements of: ground-based volcano 
monitoring, satellite-based detection of ash clouds, modeling cloud 
movements in the atmosphere, and specific communication protocols among 
the diverse parties responding to the hazard.
    In the United States, the USGS, NOAA, Federal Aviation 
Administration (FAA), and Air Force Weather Agency (AFWA) at Offutt Air 
Force Base in Nebraska collaborate according to International Civil 
Aviation Organization (ICAO) guidelines, sharing data and refining 
communication protocols so that necessary information reaches 
commercial and military pilots, dispatchers, and air-traffic 
controllers quickly. The USGS has responsibility for providing 
notifications of significant pre-eruption volcanic activity, volcanic 
eruptions, and volcanic ash in the atmosphere. The USGS capability to 
provide such notifications is based on data and observations collected 
from monitoring networks operated by the five U.S. volcano 
observatories supported by the USGS Volcano Hazards Program.
    USGS volcano monitoring activities do not stand alone. For both 
aviation and ground hazards, no single geophysical monitoring technique 
or system can confidently provide timely alerts of eruptions; neither 
seismic networks, GPS arrays, nor remote sensing techniques on their 
own are adequate for reliable forecasting or alerting purposes. 
Recognizing this, we have developed very close working relationships 
with groups that track ash clouds using civilian meteorological 
satellites, in particular the AFWA and NOAA's Volcanic Ash Advisory 
Centers (VAACs) located in Washington D.C. and Anchorage. During 
precursory unrest and eruptive episodes, we share observational data 
and maintain frequent telephone contact to ensure consistent 
interpretations of volcanic activity and potential hazards. No one 
organization has a monopoly on critical monitoring information. 
Effective communication among the various groups is crucial to 
successful mitigation of the hazard.
    In addition to USGS monitoring efforts, we also are working to 
improve the communication procedures that are critical for eruption and 
ash-cloud information to reach the cockpit. In call-down lists at U.S. 
volcano observatories, FAA, VAACs, and aviation weather offices of the 
National Weather Service (NWS) are among the first agencies to be 
notified. Since the mid-1990s, USGS scientists have worked with Russian 
scientists to disseminate information about eruptions from the 
Kamchatka Peninsula that could affect U.S. controlled airspace. 
Recently, USGS scientists played a key role in the establishment of the 
first-ever monitoring and reporting group for the Kurile Island chain 
of volcanoes. The USGS has organized the formulation of inter-agency 
operating plans for dealing with ash episodes in the North Pacific and 
Marianas regions. These plans provide operational guidance by 
documenting the required procedures of the government agencies 
responsible for ensuring safety of flight operations. The USGS is 
working with FAA, NOAA, and AFWA to complete a national operational 
plan for volcanic ash hazards to aviation.
    Another important role for USGS is hazard education--building 
awareness among volcanologists, meteorologists, pilots, dispatchers, 
and air-traffic controllers of the nature of the hazard and how to 
respond to it. The USGS has assisted in the development of training 
videos for pilots and air-traffic controllers, provided technical 
briefings for airlines and industry groups, organized technical 
symposia, and published articles in aviation journals.

Research Priorities
    Research is also a critical component of mitigation. To improve our 
forecasting abilities, we need to gain a much better fundamental 
understanding of eruption processes. Research and experience in the 25 
years since the 1980 eruption of Mount St. Helens has brought 
volcanology to a point where, with adequate monitoring systems in 
place, the timing of volcanic eruptions can be forecast with some 
confidence hours to days in advance. The next major scientific goal for 
volcanology is to accurately forecast the size and duration of 
eruptions, which bears directly on hazards issues confronted by enroute 
aircraft and people on the ground. For instance, being able to forecast 
that an eruption will be small and unlikely to erupt ash to altitudes 
above 15,000 feet versus one that sends ash to 50,000 feet will have 
amajor impact on response by the aviation community. Another aspect is 
the ability to identify when an eruption is over, not just temporarily 
paused. This is quite a complex problem. Such information is valuable 
to airports, for example, because it tells them when they can start 
cleaning up from ashfall and hasten the return to normal operation.
    Air routes over active volcanic regions will continue to be heavily 
used, and volcanic ash will persist as a serious aviation hazard. Much 
has been done to mitigate the volcanic threat to aviation. More 
volcanoes are being monitored now than 10 years ago, and eruption 
reporting targeted to the aviation sector is in place. Satellite 
detection of ash clouds and forecast models of ash-cloud dispersion 
have greatly improved. As a result of increased awareness and improved 
information in support of ash avoidance, no multiple-engine airplane 
failures have occurred since 1991. Despite these successes, much work 
remains. Many hazardous U.S. volcanoes are not monitored at a level 
that provides for adequate tracking of volcanic unrest that precedes 
eruption. It is still possible for there to be significant periods of 
time when ash clouds drift undetected in or near air-traffic routes, as 
was the case with the surprise eruption in 2003 of Anatahan volcano in 
the Mariana Islands. Hours elapsed from the eruption's onset to the 
issuance of the first warning to aviation of ash in the atmosphere.

Results of the Volcanic Threat and Monitoring Capabilities Assessment
    In order to better focus resources on improved monitoring of 
volcanoes that present the greatest threat, USGS recently published the 
results of the first overall evaluation of the Nation's volcano-
monitoring needs based on a systematic assessment of the societal 
threats posed by all of the 169 geologically active U.S. volcanic 
centers. The publication is entitled An Assessment of Volcanic Threat 
and Monitoring Capabilities in the United States: Framework for a 
National Volcano Early Warning System (NVEWS). The report scores 
various hazard and exposure factors for each volcano and identifies 
volcanoes where monitoring capabilities are inadequate--and in some 
cases nonexistent--for the threats posed. The results of the NVEWS 
assessment are being used to guide long-term improvements to the 
national volcano-monitoring infrastructure operated by USGS and 
affiliated partners.
    Aviation hazards carried substantial weight in the NVEWS 
assessment. The USGS developed a methodology for assessing aviation 
threat on a regional and local basis at each volcano and determined 
that about half of U.S. volcanoes represent a significant threat to 
aviation. Of this group, 19 volcanoes in Alaska and the Northern 
Mariana Islands that pose substantial threats to aviation have no real-
time ground-based monitoring. These 19 volcanoes are identified as 
high-priority NVEWS targets where better monitoring is needed.
    Surprise eruptions occur at volcanoes that lack real-time ground-
based sensor networks. Depending on the remoteness of the volcano, even 
eruption reports may be delayed without proper monitoring. Recent 
experience shows that while eruptions can be confirmed in a matter of 
minutes at volcanoes with ground-based monitoring, it may require 
several hours for eruption confirmation at un-instrumented volcanoes by 
remote sensing or pilot reports. Because of the speed with which an 
aircraft can travel toward a potential volcanic-ash encounter (about 8 
miles per minute), real-time 24/7 eruption reporting is necessary. Our 
goal is that an observatory shall notify the appropriate regional air 
traffic center of an ash-producing eruption within five minutes of the 
start of the event. This level of notification requires 24/7 operations 
at U.S. volcano observatories, adequate networks of seismic and other 
instruments and, in some cases, portable ground-based RADAR to detect 
ash clouds at night and in bad weather.
    In the NVEWS assessment, other very-high-threat volcanoes, 
including nine in the Cascade Range in California, Washington, and 
Oregon and four in Alaska, were identified as having inadequate or 
antiquated networks and are considered under-monitored for the threats 
posed to both aviation and ground communities and infrastructure. 
Eruptions at Mount St. Helens, Kilauea, Augustine, and Anatahan and 
unrest at Mauna Loa in Hawaii and Spurr in Alaska also require a robust 
monitoring capability.

Conclusion
    Volcanic ash will continue to be a dangerous and costly threat to 
aviation into the foreseeable future. The USGS will continue its 
efforts to enhance monitoring capabilities at those sites where the 
greatest risk exists.
    Hazard mitigation for U.S. volcanoes requires:

  <bullet> Continued improvement of monitoring capabilities and 
        instrumentation of U.S. volcanoes with high aviation risk. 
        Concerns should focus not only on reporting where and when an 
        eruption has occurred and how high its plume went, but also 
        with reliably diagnosing volcanic unrest and forecasting likely 
        eruptive activity, including how long eruptive activity might 
        continue and the potential for recurring explosive events.

  <bullet> Continued refinement of protocols for communicating eruption 
        and ash hazard information to other agencies and clientele. The 
        aviation community must be familiar with and confident in 
        monitoring and notification abilities through the use of 
        conferences, publications, drills, and demonstrations.

  <bullet> Continued USGS leadership in building awareness of the ash 
        hazard to aviation. Without broad-based hazard awareness, the 
        commitment to carry out a mitigation strategy is severely 
        weakened. The USGS will continue to foster hazard education 
        through a variety of venues and methods.

    There are no remote volcanoes when we consider aviation hazards. 
Mitigating this risk requires efficient teamwork by multiple agencies. 
The USGS will continue to do its part by providing timely information 
based on reliable monitoring data. However, as the ability to prevent 
ash encounters improves to the point that fewer incidents occur, we 
must not mistakenly conclude that no threat exists. Rather, we must 
call for continued vigilance and support of proven, broad-based 
mitigation efforts.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony.

    The Chairman. Thank you very much. We have a problem here 
and I don't know how we're going to deal with it this year, 
because of the policies on earmarks. In the past the monies 
that you have spoken about for the Alaska Volcano Observatory 
have come from three basic sources from USGS, and this year the 
President's budget does contain the same amount we had--as a 
matter of fact it's gone up by $100,000 its $4.4 million, in 
2006 and 2007. However the monies that the FAA has received 
have been because of an earmark that the Congress approved at 
my request each year. NOAA also contributed the $300,000 
dollars a year to maintain the ash flow computer models. Their 
funding was cut by 50 percent and the future of the FAA money 
is in serious doubt.
    Now Captain, I think you've made the case for the 
international air routes going through the airspace of these 
volcanoes and we'll do our best to try and maintain that FAA 
earmark. As I said, I really don't know what's going to happen 
to it this year. But let me ask Dr. Quick--USGS, because of 
Augustine I understand, has had to direct a lot of your monies 
in both monitoring equipment and manpower to really help keep 
track of the Augustine eruption patterns that have developed 
since January of this year. Has that adversely affected USGS' 
capability to monitor other active volcanoes throughout our 
country, Alaska and the south 48?
    Dr. Quick. Mr. Chairman, the USGS responds to new eruptions 
of volcanoes by redirecting funds to the extent possible. The 
eruption of Augustine has basically impacted our operations in 
Alaska such that we will be performing no field work on hazard 
assessments in the Aleutians this year, nor will we be 
extending the monitoring network in the Aleutian chain this 
year as the eruption continues, as we project it may for 
another 5 months or so. Based on past histories, we project 
that it will be necessary to redirect funds from other 
activities, such as purchase and deployment of equipment to 
extend the monitoring network in the Mariana Islands and 
rebuilding of the monitoring network damaged by the eruption of 
Anatahan also on the Mariana Islands. Funds will be redirected 
that were previously identified for improvement of monitoring 
networks at Mount Rainier, Mount Hood, and Three Sisters.
    Let me assure you that monitoring volcanoes is the last 
thing, however, that we will turn off. And we will continue to 
monitor volcanoes as long as our networks are active.
    The Chairman. Well, thank you. Have you discussed this with 
the hierarchy of USGS in terms of any requests for supplemental 
money for your agency?
    Dr. Quick. We have had discussions about possible 
supplementals, yes.
    The Chairman. We'd be happy to be included in those 
discussions, if that's possible, because there is a 
supplemental going through right now, as a matter of fact. And 
I would not want your agency to be without funds necessary to 
continue expanding this coverage. As Captain McVenes has 
indicated the danger goes all the way across the Pacific, not 
just in our area. I hope that we can continue to expand and to 
increase the safety factor as far as those planes are 
concerned. Dr. Eichelberger, again I thank you for coming all 
this way. Can you tell me, you're part of this observatory; it 
really involves information going from USGS, from NOAA, to the 
FAA.
    Dr. Eichelberger. Right.
    The Chairman. Each agency has to be involved. And obviously 
each agency has to have funds. Are you satisfied that the 
funding of the past was sufficient?
    Dr. Eichelberger. Yes, I think the outcome as far as 
enacted funding has been sufficient. It's been very good. 
Although this year we're doing a million dollars or about 15 
percent, just as we face this eruption. And I'm very concerned 
about the future for the reasons you outlined.
    The Chairman. You're right, that earmark went down a 
million dollars. It was at a $4 million dollar level.
    Dr. Eichelberger. That's correct.
    The Chairman. And now it's down to a $3 million dollar 
level. And in fact it requires an earmark to even maintain 
that.
    Dr. Eichelberger. That's correct, yes. So, without either 
an earmark or a new firm arrangement for support within the 
Federal budget process, we'll be starting to dismantle the 
team. It's easy to see why this has happened I think. For one 
thing originally it was seen as kind of a local problem in 
Alaska. But really it's an international one. And then of 
course the aviation hazard was a newly recognized thing. It was 
an expansion of the USGS mission which USGS never received an 
increase in funding for. It's in a sense within FAA mission but 
it's not within FAA expertise, so one can understand how this 
has happened, but it certainly needs to be addressed.
    The Chairman. Well, after the--what was it, the 1989 
eruption we had a meeting at the FAA office in Anchorage, USGS 
came to that, as well as representatives of the airline 
industry and the university and the observatory process was the 
outcome of that meeting.
    Dr. Eichelberger. Yes.
    The Chairman. And it has been looked on by Congress as just 
another Alaskan piece of pork.
    Dr. Eichelberger. That's extremely unfortunate. But, you 
know----
    The Chairman. And that's one of the unfortunate problems of 
being located where we are, whatever we add to the budget as 
one of my colleagues formally said, was Eskimo ice cream. I 
just don't know how to handle this one this year. We're going 
to have to have some greater understanding throughout the 
country the fact that those planes are flying in--they're not 
even landing in Alaska. Isn't that right, Captain?
    Dr. Eichelberger. Many of them are not, that's right.
    The Chairman. Most of them are over flying Alaska these 
days, cargo planes land there because of fuel, but the bulk of 
the planes that your pilots fly start in Chicago or New York, 
and fly over Alaska on the great circle route to the Orient. 
And that's the great advantage of the great circle route to the 
pilots, it just happens to come over Alaska.
    Dr. Eichelberger. Yes.
    The Chairman. But this is not an Alaska matter, this is 
protecting Americans and people from all over the world that 
are traveling on those planes. We don't seem to have the 
understanding here that we need.
    Dr. Eichelberger. That's right.
    The Chairman. Senator Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman. Do we know 
what some of the other nations in the vicinity do in terms of 
monitoring, and what their contribution to this process may be? 
They're obviously the beneficiaries of the same route, and they 
obviously would have some of the same problems. Do we know what 
they're doing?
    Dr. Eichelberger. Yes, Japan is very advanced in monitoring 
its volcanoes. Probably in general their volcanoes are more 
thoroughly monitored than ours are. Russia has a lot of very 
bright energetic people and not much in the way of financial 
resources right now. And we have worked very closely with them 
to help them develop their monitoring, which they are now doing 
more and more. In fact I'll be going there after this meeting 
and continue that work.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    The Chairman. Senator DeMint?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. I apologize for missing your testimony; I 
appreciate all of you coming here. It's clearly a problem that 
a lot of us have not been that familiar with. So it's very 
helpful to me. This Committee is all about prediction and 
prevention of natural disasters and certainly volcanoes are one 
of those issues. Just one question, I know we need to go vote, 
and this has probably already been answered. But does the 
airline industry--and Captain, I can direct this at you, 
believe that they receive adequate warnings from the National 
Weather Service, the Federal Aviation Administration, or the 
U.S. Geological Survey, about potential threats of ash plumes? 
I mean, where are we with that?
    Captain McVenes. Well if you look at the events that have 
taken place, fortunately a lot of the mitigation strategies and 
the monitoring of volcanic eruptions have improved greatly. We 
haven't had any total engine failure situations since 1991, so 
obviously there has been some progress made.
    But we're still in a position where we need to do a little 
bit better job. Have a little bit better monitoring, so we can 
do better forecasting of when these eruptions will take place 
so that the airlines can better plan their routes around these 
areas; so that we don't get ourselves in a position of 
inadvertently getting into them when we don't know it.
    We also need to have some more research and advancements in 
the areas of predicting the movement of the ash clouds again so 
we can better plan ahead of time.
    Senator DeMint. But this can be a problem at 30-40,000 feet 
right?
    Captain McVenes. Yes sir.
    Senator DeMint. We've got a lot of work to do, I appreciate 
all the information and Mr. Chairman, unless you have some 
additional questions?
    The Chairman. No, I do appreciate you taking the time, all 
of you, to come help us make a record of this, so we can do our 
best to try and restore this funding this year.
    Dr. Eichelberger. Well, thank you. Thank you very much.
    The Chairman. I know it's been hard on you particularly, 
Doctor, so thank you very much for coming.
    [Whereupon at 10:43 a.m., the hearing was adjourned].

                            A P P E N D I X

    Prepared Statement of Daniel K. Inouye, U.S. Senator from Hawaii

    I doubt that the general public is aware of the grave dangers 
volcanic ash clouds present to passenger jets. Given the number of 
volcanoes that we have in Hawaii, we are a bit more familiar with this 
hazard.
    Ash from an erupting volcano can reach 30,000 feet, the same 
altitude passenger jets fly. Volcanic ash may limit visibility, damage 
flight control systems, and cause jet engines to fail. It is difficult 
for pilots and radar operators to distinguish ash clouds from ordinary 
clouds, but the implications of flying through an ash cloud can be 
disastrous.
    The airlines have experienced a number of such cases, including one 
incident where a passenger jet lost more than 14,000 feet of altitude 
and resulted in $80 million worth of repairs. Also, ash clouds can 
drift several hundred miles away from the eruption and present risks to 
planes far away from volcanic activity. These are serious concerns for 
me and the people of my state because we rely so heavily on aviation 
for our transportation needs.
    The best way to address this risk is for planes to avoid the 
volcanic ash clouds completely. However, this requires coordination 
between seismologists, volcanologists, air traffic control operators, 
and pilots. This entire system depends on the accurate monitoring of 
volcanic activity.
    The recent report by the United States Geological Survey (USGS) is 
disturbing because it found that many of the most dangerous volcanoes 
currently are unmonitored. It correctly concludes that a greater, more 
complete monitoring effort is required. I encourage the USGS to commit 
greater attention and resources to the National Volcano Early Warning 
System.
                                 ______
                                 
      Prepared Statement of the National Oceanic and Atmospheric 
                         Administration (NOAA)

    This Statement for the Record will provide a brief background on 
the impacts of volcanic ash on aviation, and highlight the National 
Oceanic and Atmospheric Administration's (NOAA's) role in mitigating 
the impact of volcanic hazards on aviation.

Impact on Aviation
    With the advent of modern fuel-efficient commercial jet aircraft 
engines and the increase in flights worldwide, routine volcanic 
eruptions, which previously had been only a minor inconvenience to 
commercial aviation, have become a major hazard. When fine silica 
particles lofted into the atmosphere by volcanic eruptions come into 
contact with jet engines, the particles melt from the heat of the 
engine and become hard deposits on the turbine blades. These deposits 
can eventually result in a loss of power or emergency shut-down of the 
engine. Because aircraft are capable of moving at several hundred miles 
an hour, the ash particles also act as projectiles. These particles 
cause abrasion to the aircraft, damaging windshields, fuselage, and 
critical instrumentation on the outside of the aircraft. The ash can 
also enter the aircraft's cabin and ventilation systems.
    The aviation industry is greatly impacted by the hazards posed from 
volcanic ash. More than 80 commercial aircraft worldwide have 
unexpectedly encountered volcanic ash in flight and at airports in the 
past 15 years. Seven of these encounters caused in-flight loss of jet 
engine power, which nearly resulted in the crash of the airplane. These 
incidents highlight the vulnerability of aircraft to volcanic ash 
clouds.
    The national and international aviation communities have taken 
action to help aircraft avoid such dangerous environments. In the mid-
1990s, the International Civil Aviation Organization (ICAO) and NOAA 
reached an agreement whereby NOAA monitors satellite imagery and data 
to detect volcanic eruptions and, in the event of an ash eruption, 
issues advisories and warnings for the aviation community. NOAA also 
runs computer simulations to forecast the dispersion of volcanic ash. 
NOAA, the U.S. Geological Survey (USGS), and the Federal Aviation 
Administration (FAA) work in a strong partnership to monitor and 
mitigate the effects of volcanoes on aviation.
    Airspace managers, in consultation with airlines, pilots, and 
others in the aviation community, have developed a course of action in 
the event of an impending encounter with volcanic ash. The common goal 
is to completely avoid the ash cloud. To accomplish this, airspace 
managers determine new flight paths for the aircraft based on the 
location of the ash cloud and its projected path. There are ``safety 
zones'' near ash clouds which range from a few miles to several hundred 
miles based on forecast uncertainty and winds. Minor deviations can 
cost the airlines in the order of tens of thousands of dollars, while 
significant re-routes, which include landing at alternate airports, can 
cost airlines hundreds of thousands of dollars or more per flight.
    Timely and accurate observation, forecast, and warning information 
is crucial to the aviation community for safety and economic reasons. 
The aviation industry is moving toward a minimum of five minutes lead 
time to be notified of an explosive volcanic eruption. Such an eruption 
can send its ash high into the atmosphere reaching flight level in 
about five minutes, potentially impacting en route jet traffic. 
Research continues to develop better tools for forecasters to provide 
faster and more accurate detection of eruptions.

NOAA Operations
    Major volcanic events during the 1980s and into the early 1990s 
helped to bring the global community together to help mitigate the 
hazards of volcanic ash. By 1997, the ICAO established nine worldwide 
Volcanic Ash Advisory Centers (VAACs) as part of a global network. NOAA 
currently operates two of these nine VAACs. The Washington D.C. VAAC is 
jointly managed by NOAA's National Weather Service (NWS) and NOAA's 
National Environmental Satellite Data and Information Service (NESDIS). 
The Anchorage, Alaska, VAAC is managed by NWS and co-located with the 
NWS Alaska Aviation Weather Unit (AAWU).
    The Washington VAAC area of responsibility includes the continental 
United States, Central America, the Caribbean, and South America to 10 
degrees south latitude. It also includes U.S. controlled oceanic Flight 
Information Regions (FIRs). The Anchorage VAAC area of responsibility 
includes the Anchorage FIR and a portion of eastern Russia (north of 
60+ N. latitude and east of 150+ E. longitude).
    The role of the VAAC is to monitor all available satellite, radar, 
and other observational data (e.g. Pilot Reports) to determine the 
location, extent and movement of volcanic plumes. VAACs use this 
information to issue real-time text and graphical products about 
airborne volcanic ash to the aviation community. The centers use 
volcanic ash dispersion model predictions to assist in making a 
forecast of these ash plumes out to 18 hours. The dispersion model 
predicts where the volcanic ash will spread over time and this 
information is then relayed to the user community. Information about 
the volcano, including a detailed forecast of the ash plume, is 
included in a Volcanic Ash Advisory (VAA). VAACs provide this 
information to international Meteorological Watch Offices (MWOs), which 
in turn issue Significant Meteorological Information (SIGMETs) to the 
aviation community. The SIGMET is the official warning product for 
airborne volcanic ash.
    There are dozens of MWOs around the globe, ostensibly one for each 
country, or one designated by a country as an MWO. These offices are 
established under an ICAO agreement, with three designated in the 
United States located at the Aviation Weather Center in Kansas City, 
the Weather Forecast Office in Honolulu, and the AAWU in Anchorage. 
MWOs are responsible for issuing SIGMETs, warning the aviation 
community about atmospheric hazards to aircraft, including volcanic 
ash, turbulence, large areas of thunderstorms, icing, and tropical 
cyclones.
    The NWS also issues volcanic ash products for the national airspace 
managers in the Federal Aviation Administration's (FAA's) Air Route 
Traffic Control Centers (ARTCC). Center Weather Advisories are produced 
by NWS Center Weather Service Units (CWSU), which are collocated at 21 
ARTCCs. NOAA products and information are distributed widely to the 
aviation community, private sector, U.S. military agencies, and 
Federal, state, and local governments.
    As a further service to Alaska, one of the most volcano-vulnerable 
areas of the United States, the Alaska Aviation Weather Unit/Anchorage 
VAAC, Anchorage Weather Forecast Office, and CWSU also participate in 
an interagency group for volcanic ash. Membership in this interagency 
group includes the NWS, USGS, FAA, United States Air Force, United 
States Coast Guard, and the State of Alaska Division of Homeland 
Security and Emergency Management. The group meets quarterly to discuss 
a wide variety of issues including science, research, and operations 
issues concerning volcanic ash. The group is also responsible for 
updating an Alaska Interagency Operations Plan for Volcanic Ash 
Episodes every 2 years, which defines the responsibilities of each of 
the participating agencies. The Alaska plan has become the foundation 
for the development of a new National Interagency Volcanic Ash Plan.

Active Volcanoes
    The Anchorage VAAC has just over 100 historically active volcanoes 
contained both within and in close proximity to the Anchorage FIR. In 
2005, there were several active volcanoes both within and in close 
proximity to the Anchorage VAAC area of responsibility. These volcanoes 
included Veniaminof and Cleveland in the Aleutian Islands and Karymsky, 
Sheveluch, Bezymianny, and Klyuchevskoy in Kamchatka, Russia. In 2006, 
only Augustine Volcano located just 175 miles southwest of Anchorage 
has become active starting on January 11. A series of emissions 
continued throughout February. As Augustine is close to the Kenai 
Peninsula and Anchorage, the State of Alaska Division of Homeland 
Security and Emergency Management, USGS, FAA, NWS, State of Alaska 
Department of Environmental Conservation, Municipality of Anchorage 
Health and Human Services, and others have worked closely together 
during these events to help mitigate potential impacts from the 
eruptions. This collaborative partnership between numerous agencies at 
different levels was coordinated by the NWS National Volcanic Ash 
Program Manager, who is located at the NWS Alaska Region Headquarters 
in Anchorage, AK.
    In 2005, the following volcanoes within the Washington VAAC area of 
responsibility were active; Mount St. Helens in Washington State; 
Colima and Popocatepetl in Mexico; Soufriere Hills on Montserrat 
Island; Anatahan volcano on the Mariana Islands chain; Santa Maria and 
Fuego in Guatemala; Santa Ana in El Salvador; Reventador, Tungurahua, 
and Sangay in Ecuador; Galeras in Colombia; and Negra, Sierra, and 
Fernandina on the Galapagos Islands. So far in 2006, six volcanoes have 
been active including Colima, Popocatepetl, Reventador, Santa Maria, 
Soufriere Hills and Tungurahau. Ash from volcanoes located within the 
Anchorage VAAC area of responsibility, such as Augustine volcano, can 
move into the Washington VAAC area of responsibility, requiring 
detailed additional coordination and requiring the Washington VAAC to 
issue volcanic ash advisories.
Volcanic Ash Dispersion Models
    NOAA's Air Research Laboratory (ARL) continues to improve volcanic 
ash modeling with the HYbrid Single-Particle Lagrangian Integrated 
Trajectory (HYSPLIT) model. The HYSPLIT model is NOAA's official 
dispersion model and was developed by researchers at NOAA in 
partnership with the external community. When the Washington or 
Anchorage VAAC detects an eruption in their area, NOAA's National 
Centers for Environmental Prediction is notified and runs the HYSPLIT 
model. The dispersion model predicts where the volcanic ash will spread 
over time and this information is relayed to VAACs, as well as the user 
community. By tracking volcanic ash and forecasting where it will 
spread, NOAA is helping to reduce the risk volcanic eruptions pose to 
aviation.

Research and Improvements
    The research community is very involved in the volcanic ash hazards 
program. NOAA has made many contributions during the past decade. A 
prime example of this effort is the development of multi-spectral 
volcanic ash image products using Polar Operational Environmental 
Satellite (POES) data, Geostationary Operational Environmental 
Satellite (GOES) data, and Moderate Resolution Imaging 
Spectroradiometer (MODIS) data from the National Aeronautics and Space 
Administration (NASA) Aqua and Terra spacecraft. The FAA Aviation 
Weather Research Program is also working on a multi-sourced automated 
3-dimensional analysis of volcanic ash clouds. Here ``multi-sourced'' 
refers to the use of multiple satellites (geostationary and polar-
orbiting) and multiple ash detection and height estimation methods 
(according to viewing wavelengths available, time of day, scene 
characteristics, etc.). Sensors on NOAA's GOES and POES satellites are 
able to detect a volcanic ash eruption within minutes of an event. In 
some instances, these satellites are the only means by which NOAA 
meteorologists know a volcanic ash hazard exists in the airspace. To 
build on current satellite contributions to NOAA's volcanic ash 
activities, NOAA's future GOES and NPOESS (National Polar-orbiting 
Operational Environmental Satellite System) will continue these 
detection capabilities. NOAA supplements its operations using data from 
NASA Aqua, Terra, and TOMS (Total Ozone Mapping Spectrometer) 
spacecraft, and foreign satellites, as needed.
    New guidance and products resulting from this research is tailored 
to aviation needs and is focused on making the national airspace system 
safer and more efficient during a volcanic ash event. Efforts are 
focused on integrating the latest advancements in volcanic ash 
detection and dispersion from the research community, allowing users to 
overlay and manipulate this information in real-time, developing tools 
to generate impact statements and graphics, and disseminating the 
impact statements to end users in a timely fashion so hazard mitigation 
plans can be activated.
    The Volcanic Ash Collaboration Tool (VACT) is an experimental tool 
designed to help locate and determine the extent and movement of 
volcanic ash so that more accurate, timely, consistent, and relevant 
ash dispersion and ash fallout watches, warnings, advisories, and 
forecasts can be issued. The VACT allows users at different sites and 
with different expertise to simultaneously view identical displays of 
volcanic ash and other related data sets (i.e., shared situational 
awareness) and collaborate in real-time. The VACT assists forecasts in 
preparing and issuing current products and services and will also make 
possible future products such as graphical tactical decision aides for 
airspace management. The VACT has been successfully tested in 
operations in Alaska during the recent eruptions of Augustine volcano.
    All volcanic ash events are captured and archived to help improve 
detection and dispersion methodologies, train new users on VACT 
functionality, detect and eliminate problems with multiple agencies 
collaborating in real-time on volcanic ash events, and improve 
dissemination techniques.
    Future efforts will focus on incorporating the VACT to adjacent 
VAAC's operations so information isn't lost as ash moves across the 
globe. The text chat capability will be extended to be multilingual. As 
new detection, fallout, and dispersion techniques are created, they 
will be integrated into the tool. New capabilities in dissemination 
technology are also planned to be incorporated into the VACT. Such a 
tool also shows great promise to allow interagency coordination for 
other hazards such as tsunamis and hurricanes, and also represents a 
capability to allow NOAA scientists to brief other decision-makers, the 
media, etc.

                                  <all>

</pre></body></html>
